NATIONAL CREDIT UNION ADMINISTRATION

        OFFICE OF INSPECTOR GENERAL




                     MATERIAL LOSS REVIEW OF
                         CENTER VALLEY
                      FEDERAL CREDIT UNION


                         Report #OIG-10-02
                           April 14, 2010




                          William A. DeSarno
                          Inspector General



Released by:                           Auditor-in-Charge:




James Hagen                            Charles Funderburk
Asst IG for Audits                     Senior Auditor
                                 CONTENTS


Section                                                       Page



   I      EXECUTIVE SUMMARY                                    1

  II      BACKGROUND                                           3

  III     OBJECTIVES, SCOPE AND METHODOLOGY                    5

  IV      RESULTS                                              7

              Why Center Valley Federal Credit Union Failed    7

              NCUA Supervision of Center Valley FCU           12

              Observations and Lessons Learned                18

 APPENDICES

  A           Examination History                             20

  B           Transaction Risk Indicators                     22

  C           Documents of Resolution                         23

  D           NCUA Management Comments                        25
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


                             EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a Material Loss Review of Center Valley Federal Credit Union (Center
Valley). We reviewed Center Valley to (1) determine the cause(s) of the credit union’s
failure and the resulting loss to the National Credit Union Share Insurance Fund
(NCUSIF); and (2) assess NCUA’s supervision of the credit union. To achieve these
objectives, we analyzed NCUA examination and supervision reports and related
correspondence; interviewed management and staff from NCUA Region 2; and
reviewed NCUA guidance, policies and procedures, NCUA Call Reports, and NCUA
Financial Performance Reports (FPR).

We determined embezzlement was the direct cause of Center Valley’s failure. As of
December 31, 2008, the credit union had approximately $8.4 million in total assets.
When NCUA conducted a surprise visit to review Center Valley’s call reports and to
obtain share and loan balance downloads, examiners found the chief executive officer
(CEO) was keeping two sets of financial records and a $12.1 million discrepancy
existed. Back dated transactions to member accounts were used to conceal the
fraudulent activity. In addition, during routine examinations the CEO repeatedly blamed
the unavailability or inaccurate data on computer problems. The CEO used credit union
funds for the CEO’s personal benefit and the benefit of the CEO’s family members,
including the construction of a restaurant and resort business. Furthermore, on August
3, 2009, a Federal Grand Jury indicted and charged the CEO with embezzling and
misapplying $9 million from Center Valley and money laundering. Consequently, on
January 4, 2010, the CEO pled guilty to the charges.

We also determined that credit union management failed to meet their required
obligations to implement proper internal controls and oversight. Specifically,
management did not ensure (1) member account verifications were properly conducted,
(2) adequate internal controls were in place, and (3) controls were monitored for
effectiveness. For example, although Center Valley’s Supervisory Committee
contracted with external auditors to complete their annual audit, we did not find any
evidence of other work performed by the Supervisory Committee. In addition, neither
the external auditor nor credit union management resolved a $252,000 bank
reconciliation error. Furthermore, bank reconcilements were several months in arrears,
file maintenance reports were not reviewed, and there was a lack of segregation of
duties. Therefore, the CEO was able to conduct the embezzlement for approximately
three or more years.

Finally, we determined NCUA examiners did not adequately evaluate the risks to Center
Valley’s operations. Specifically, examiners did not thoroughly evaluate the credit
union’s internal controls when assessing transaction risk and management component
ratings. We found prior to the discovery of the embezzlement NCUA examiners were
aware of some internal control weaknesses but did not rate transaction risk as high. For
example, the CEO repeatedly cited computer problems or software issues as the
causes of inaccurate data and delays in obtaining file downloads from 2004 through



                                           1
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


2007. The external auditor reported the credit union was not following its written
policies and control procedures, and found a $252,000 bank reconciliation error was not
resolved. However, the examiners repeatedly noted during examinations that no
reportable conditions or material weaknesses existed. Furthermore, it was not until the
discovery of the fraud that NCUA identified serious internal control weaknesses. As a
result, NCUA missed opportunities to expand examination procedures that may have
detected the fraud sooner and mitigated the loss to the NCUSIF caused by Center
Valley’s failure.

In addition, we reviewed industry observations regarding occupational fraud. We
believe the industry’s observations apply directly to issues we observed during our
review. We determined Center Valley’s lax internal control environment created an
environment susceptible to fraud. Our comparative analysis can be found in Section C
of this report.

This report does not contain recommendations but provides observations and
suggestions. As major causes, trends, and common characteristics of financial
institution failures are identified in our reviews, we will communicate those to
management for its consideration. As resources allow, we may also conduct more in-
depth reviews of specific aspects of the NCUA’s supervision program and make
recommendations, as warranted.

We appreciate the courtesies and cooperation NCUA management and staff provided to
us during this review.




                                           2
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


BACKGROUND

Center Valley Federal Credit Union

Center Valley Federal Credit Union (Center Valley), located in Wheeling, West Virginia,
was chartered as a Federal Credit Union in 1975. It was a low-income 1 credit union 2
with two branches, six fulltime employees, seven Board members and two Supervisory
Committee members. The CEO, who worked for the credit union for over 14 years, was
highly qualified, well known and trusted in the credit union community. As of December
31, 2008, the credit union had approximately $8.4 million in total assets and served
3,000 members. Center Valley was located in NCUA’s Region II.

On February 13, 2009, the NCUA Board placed Center Valley into involuntarily
liquidation pursuant to section 207(a)(1)(A) of the Federal Credit Union Act3 (FCU Act)
and appointed itself as liquidating agent. Center Valley’s failure resulted in a loss to the
NCUSIF of approximately $16.4 million.

NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes: collecting, reviewing, and interpreting
data; reaching conclusions; making recommendations; and developing action plans.
The objectives of the total analysis process include evaluating CAMEL 4 components,
and reviewing qualitative and quantitative measures.

NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union's financial condition and operations. The CAMEL rating
includes consideration of key ratios, supporting ratios, and trends. Generally, the
examiner uses the key ratios to evaluate and appraise the credit union’s overall financial
condition. During an examination, examiners assign a CAMEL rating, which completes
the examination process.

Examiner judgment affects the overall analytical process. An examiner’s review of data
includes structural analysis, 5 trend analysis, 6 reasonableness analysis, 7 variable data

1
  A credit union can receive a low-income designation when a majority of members either earn less than 80 percent
of the average of all wage earners, as established by the Bureau of Labor Statistics, or have an annual household
income that falls at or below 80 percent of the median household income for the nation as established by the Census
Bureau.
2
  Low-income credit unions can accept non-member deposits, participate in the Community Development Revolving
Loan Program, offer secondary capital accounts and qualify for exception from the aggregate loan limit for member
business loans.
3
  12 U.S.C. §1787(a)(1)(A).
4
  The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset/Liability Management.
5
  Structural analysis includes the review of the component parts of a financial statement in relation to the complete
financial statement.
6
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
7
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance ratios.



                                                          3
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


analysis, 8 and qualitative data analysis. 9 Numerous ratios measuring a variety of credit
union functions provide the basis for analysis. Examiners must understand these ratios
both individually and as a group because some individual ratios may not provide an
accurate picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or concentration
activities can serve as triggers of changing risk and possible causes for future
problems. NCUA also instructs examiners to look behind the numbers to determine the
significance of the supporting ratios and trends. Furthermore, NCUA requires
examiners to determine whether material negative trends exist; ascertain the action
needed to reverse unfavorable trends; and formulate, with credit union management,
recommendations and plans to ensure implementation of these actions.

Center Valley received a composite CAMEL code 1 rating through September 2005.
From March 2006 through March 2008, the credit union received a composite CAMEL
code 2 rating. (See Appendix A Table A-1 for Center Valley’s CAMEL ratings.)

Risk-Focused Examination Program

In May 2002, NCUA announced its new Risk-Focused Examination (RFE) Program, for
implementation in the fall of 2002. Risk-focused supervision procedures often include
both off-site and on-site work that includes reviewing off-site monitoring tools and risk
evaluation reports. The RFE process includes reviewing seven categories of risk:
Credit, Interest Rate, Liquidity, Transaction, Compliance, Strategic, and Reputation.
Examination planning tasks may include (a) reviewing the prior examination report to
identify the credit union’s highest risk areas and areas that require examiner follow-up;
and (b) analyzing Call Report and FPR trends. The extent of supervision plans
depends largely on the severity and direction of the risks detected in the credit union’s
operation and on management’s demonstrated ability to manage those risks. A credit
union’s risk profile may change between examinations. Therefore, the supervision
process encourages the examiner to identify those changes in profile through:

    •    Review of Call Reports;

    •    Communication with credit union staff; and

    •    Knowledge of current events affecting the credit union.




8
  Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process enables
examiners to look beyond the "static" balance sheet figures to assess the financial condition, quality of service, and
risk potential.
9
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union's current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.



                                                           4
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the 12-Month Program. 10 NCUA indicated
these changes were necessary due to adverse economic conditions and distress in the
nation’s entire financial structure, which placed credit unions at greater risk of loss. The
NCUA stated that the 12-Month Program will provide more timely relevant qualitative
and quantitative data to recognize any sudden turn in a credit union's performance.

Objective, Scope and Methodology

The FCU Act 11 requires the NCUA’s OIG to conduct a material loss review when the
NCUSIF incurs a material loss with respect to an insured credit union. The Act defines
a material loss as (1) exceeding the sum of $10 million and (2) an amount equal to 10
percent of the credit union’s total assets at the time at which the Board initiated
assistance or was appointed liquidating agent. NCUA notified the OIG of an estimated
loss reserve for Center Valley of $16.2 million. Consequently, in accordance with the
FCU Act and Chapter 3 of the NCUA Special Assistance Manual, we initiated a material
loss review.

The objectives of our review were to (1) determine the cause(s) of Center Valley’s
failure and the resulting loss to the NCUSIF, and to (2) assess NCUA’s supervision of
the credit union. To accomplish our objectives we conducted fieldwork at NCUA’s
headquarters and the regional office, both located in Alexandria, VA. Our review
covered the period from September 2003 to February 2009, Center Valley’s liquidation
date.

To determine the cause of Center Valley’s failure and assess the adequacy of NCUA’s
supervision we:

     •   Analyzed NCUA examination and supervision reports and related
         correspondence;

     •   Reviewed external auditor work papers;

     •   Interviewed NCUA staff; and

     •   Reviewed NCUA guidance, policies and procedures, Call Reports (5300
         Reports), and FPRs.

We used computer-processed data from NCUA’s Automated Integrated Regulatory
Examination Software and Credit Union Online systems. We did not test the controls
over these systems. However, we relied on our analysis of information from
management reports, correspondence files and interviews to corroborate data obtained
from these systems to support our audit conclusions.

10
   The 12-month program requires either an examination or a material on-site supervision contact within a 10 to 14
month timeframe based on risk-based scheduling eligibility.
11
   The FCU Act §216(j), 12 U.S.C. § 1790d(j).



                                                         5
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


This report does not make recommendations but provides observations and
suggestions. As major causes, trends, and common characteristics of financial
institution failures are identified in our reviews, we will communicate those to
management for its consideration. As resources allow, we may also conduct more in-
depth reviews of specific aspects of the NCUA’s supervision program and make
recommendations, as warranted

We conducted this audit from June 2009 through April 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls, as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Management reviewed a
discussion draft of this report. We incorporated their suggested changes where
appropriate.




                                            6
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


RESULTS IN DETAIL

We determined embezzlement of credit union funds was the cause of Center Valley’s
failure. We also determined that Center Valley’s management inactions facilitated the
embezzlement. In addition, we determined that had NCUA taken stronger supervisory
actions regarding Center Valley’s lack of internal controls, NCUA might have mitigated
the loss to the NCUSIF.

A. Why Center Valley Federal Credit Union Failed

                             We determined a fraudulent act caused the credit union to
 Embezzlement of             fail. Specifically, the CEO embezzled funds from Center
 Credit Union Funds          Valley and this resulted in an estimated loss of $16.4
                             million to the NCUSIF. In addition, on August 3, 2009, a
Federal Grand Jury indicted the CEO for embezzling and misapplying $9 million in
credit union funds, and money laundering. Furthermore, on January 4, 2010, the CEO
pled guilty to the charges.

On January 2, 2009, a third party contacted NCUA because several certificates of
deposit issued by Center Valley were not listed on Center Valley’s call report. The
following business day an NCUA examiner conducted a supervision contact to
determine why the certificates of deposit were not reflected on the credit union’s call
report and as a first step requested the share and loan balance downloads. The CEO
attempted to delay the examiner’s review by citing computer problems and end of the
year closing procedures; however, the examiner persisted. Although the CEO indicated
computer problems prevented downloading of the files, the examiner watched as the
manager re-ran the download and had the manager email them the file. Conversely,
two hours later the CEO told the examiner the file previously provided was not correct
because of the on-going computer problems and provided a supposedly accurate
second version. The examiner determined the first file was more representative of what
the members’ share and loan balances should have been, while the second file
balances were manipulated to match the general ledger balances and to cover the
fraudulent activity. Consequently, the examiner found that the CEO was keeping two
sets of financial records.

NCUA examiners compared the two sets of records and discovered the following
discrepancies in member loan and share accounts. The first download showed $15.8
million in share account balances, while the second download showed $6.3 million, a
$9.5 million discrepancy. For the loan balances, the first download totaled $5.2 million
and the second download totaled $7.8 million, which resulted in a difference of $2.6
million. The two balances combined resulted in an aggregate loss discrepancy of $12.1
million.




                                           7
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


                                             Second Download
   Account Type         First Download                              Difference
                                             (Two hours later)
   Shares               $15.8 million        $6.3 million           $9.5 million
   Loans                $5.2 million         $7.8 million           $2.6 million
   Total                                                            $12.1 million

Examiners determined, back dated transactions in the credit union’s data processing
system were used to conceal the fraudulent activity in member accounts. Therefore,
account statements received by members appeared to have the correct transaction
activity and balances. However, a subsequent member account verification performed
by NCUA revealed an additional $3.4 million in share account discrepancies. During
the account verification, credit union members reported and NCUA examiners found the
following types of concerns:

   •   Missing funds;

   •   Back dated transactions;

   •   Certificate of deposit balance discrepancies;

   •   Fraudulent (not member authorized) deposits and withdrawals; and

   •   Fraudulent loans.

NCUA examiners determined the CEO used credit union funds for the CEO’s personal
benefit and the benefit of the CEO’s family members. NCUA management then hired
an independent certified public accounting firm to document the suspected fraud
losses. This firm identified over $3 million in losses occurring from April 2006 through
January 2009. These losses coincided with the construction of a restaurant and resort
business owned by the CEO and the CEO’s spouse. In addition, the firm reviewed
records compiled by NCUA examiners and determined $1.9 million in credit union
checks were disbursed for the benefit of this business venture. The primary methods
used by the CEO to embezzle credit union funds included:

   •   Making unauthorized withdrawals from members’ accounts by using official credit
       union checks to draw funds or loan proceeds from the accounts;

   •   Drafting unrecorded credit union checks and using the checks to pay creditors of
       the CEO, family members, and other related entities;

   •   Recording fictitious deposits into personal, family members’ and related entities
       accounts; and

   •   Disbursing checks from the related party accounts that were funded with the
       fictitious deposits.



                                            8
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


     Limited Oversight     We determined that credit union management which includes
                           the Board of Directors and Supervisory Committee, failed to
     by Management
                           meet their required obligations to implement proper internal
                           controls and oversight. Specifically, management did not
ensure (1) member account verifications were properly conducted, (2) adequate
internal controls were in place, and (3) controls were monitored for effectiveness. As a
result, the CEO was able to conduct the embezzlement for approximately three or more
years.

According to NCUA guidance, supervisory committees are responsible for ensuring that
credit union Board of Directors and management establish practices and procedures
that sufficiently safeguard member assets.12 In addition, the supervisory committee
must determine whether policies and control procedures are sufficient to safeguard
against error, conflict of interest, self-dealing, and fraud. 13 Furthermore, federally
insured credit unions are required to obtain a supervisory committee audit at least once
every calendar year. 14 If an audit is performed or contracted out, a review of the
structure of the credit union’s internal controls and accuracy of the credit union’s records
must be performed. 15 Finally, the supervisory committee should perform a verification
of members’ accounts at least once every two years by comparing the accounts to the
treasurer’s records. 16

Center Valley’s Supervisory Committee contracted with external auditors to complete
their annual Supervisory Committee audit. However, we did not find any evidence of
other work performed by the Supervisory Committee, although annual audit internal
control questionnaires indicated other audit work was performed. In addition, after the
discovery of the fraud, NCUA examiners concluded and we agreed that the credit
union’s internal controls were non-existent. Some of the more serious internal control
deficiencies were:

        •   Failure to properly conduct independent verification of members accounts;

        •   Untimely and suspect bank reconcilements;

        •   Failure to balance shares, loans, cash and settlement accounts daily;

        •   Issuing credit union checks using the same check number;

        •   Data processing system allowing back dated transactions:

        •   Failure to review file maintenance reports;


12
   NCUA Rules and Regulations Section 715.3(a)(2).
13
   NCUA Rules and Regulations Section 715.3(b)(4).
14
   NCUA Rules and Regulations Section 715.4, 715.5, 715.7.
15
   Supervisory Committee Guide 4.03.
16
   NCUA Rules and Regulations Section 7.15.8(a).



                                                       9
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


    •    Lack of segregation of duties:

        o Using the same data processing password for all employees;

        o Granting supervisory authority for all employees on the computer system;

        o Staff performing transactions on their own accounts; and

        o Same staff person underwriting, approving and disbursing loans.

Member Account Verifications Not Properly Performed

The Supervisory Committee Audit and Verification Review checklists for Center Valley,
completed by NCUA examiners during the March 31, 2004 through March 31, 2008
examinations, indicated member account verifications were done. However, according
to NCUA management, member account verifications were not properly conducted
because the verifications were based on membership lists provided by the CEO.
Furthermore, an independent certified public accounting firm hired by NCUA to
document the suspected fraud losses could not find any evidence that member account
verifications had been performed for the past several years. Finally, allowing the CEO
to provide the membership lists, afforded the CEO an opportunity to conceal any
improper member account activity.

Improper Bank Reconcilements

We found that the 2005 Supervisory Committee audit, issued July 14, 2005, noted an
unresolved problem with the reconciling of $252,000 in cash. Two deposits appearing
on an April 2005 statement were used to balance the March 31, 2005 statement.
However, the monies were not posted to the credit union’s general ledger until April 4
and 5, 2005, and should not have been used to balance the March accounts. The CEO
indicated it was a software conversion error and after contacting the software provider
would fax the documentation to the external auditor. We could not find any evidence
that either the external auditor or the Supervisory Committee followed up on the
supposed error or NCUA examiners questioned the un-reconciled cash.

Lack of Daily Account Balancing

NCUA examiners discovered that bank reconcilements were several months in arrears,
there was no evidence that balances for shares, loans, cash, and settlement accounts
were reconciled daily. In addition, the 2004 Supervisory Committee audit identified
issues in loan underwriting, bank reconcilements, share accounts, internal control
policy/procedure non-compliance and accounting system problems. We found no
evidence of Supervisory Committee action to resolve any of the noted problems. An
independent review of monthly bank reconcilements would have prevented this from
occurring.




                                          10
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


Improper Check Disbursements and Back Dated Entries

NCUA examiners discovered credit union checks disbursed using the same check
number. This negates the control to properly control and monitor each specific
disbursement. In addition, NCUA examiners discovered entries posted to member
accounts using backdated transactions. An independent review of system transaction
logs could have revealed both of these types of transactions.

Lack of Review of File Maintenance Reports

Although the Supervisory Committee’s annual audit internal control questionnaires
indicated other audit work such as review of file maintenance reports and bank
reconcilements were performed, we did not discover evidence of any other work
performed by the Supervisory Committee. Our review of Center Valley’s annual
Supervisory Committee audit reports and work papers showed that the auditors did not
cite any material internal control issues regarding the file maintenance reports during
the 2006 and 2007 audits. In addition, the only internal control work papers from these
audits were internal control questionnaires completed by the Center Valley’s CEO.
Consequently, we cannot determine the extent of internal control testing performed by
the external auditor. Furthermore, NCUA examiners determined that file maintenance
reports were not reviewed. The non-review of data processing reports (file
maintenance, transaction logs, exception etc.) by an independent party, such as a
supervisory committee, may facilitate improper activity due to a lack of activity
monitoring. This also highlights an audit weakness when audit questionnaire answers
are not verified.

Lack of Segregation of Duties

Center Valley had a Board of Directors, a Supervisory Committee and six employees.
Although it was a small institution, Center Valley had the capability to segregate some
operational functions. In addition, when it was not possible to segregate duties the
Supervisory Committee needed to become more active. Center Valley was lacking
segregation of duties in the following areas:

    •   Disbursing funds and reconciling bank/corporate accounts;

    •   Using the same data processing password for all employees;

    •   Granting supervisory authority for all employees on the computer system;

    •   Credit union staff performing transactions on their own accounts; and

    •   Same staff person underwriting, approving and disbursing loans.




                                           11
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


Information System Issues

The CEO blamed many of the issues or problems discovered by external auditors and
NCUA examiners on computer problems. Specifically, the CEO cited computer
problems as the cause of the bank reconcilement issues, loan and share account
discrepancies and the inability to download share and loan files timely. We found
NCUA examiners noted computer problems during examinations from 2004 through
2007. However, given the losses and closure of Center Valley the CEO most likely
alleged the computer problems to conceal fraudulent activity.

B. NCUA Supervision of Center Valley Federal Credit Union

                               We determined NCUA examiners did not adequately
     Credit Union Risks Not
                               evaluate the risks to Center Valley’s operations.
     Adequately Evaluated
                               Specifically, examiners did not thoroughly evaluate the
                               credit union’s internal controls when assessing
transaction risk and management CAMEL ratings. As a result, NCUA missed
opportunities to expand examination procedures that may have detected the fraud
sooner and mitigated the loss to the NCUSIF caused by Center Valley’s failure.

NCUA’s risk focused examination process should determine the adequacy of internal
controls and the degree of reliance on the work efforts completed by competent,
professional individuals and documented in reports and audits.17 For example,
evaluating internal controls involves:

           •   Identifying the internal control objectives relevant to the credit union;

           •   Reviewing pertinent policies, procedures, and documentation;

           •   Discussing controls with appropriate levels of personnel;

           •   Observing the control environment;

           •   Testing transactions as indicated by the level of risk;

           •   Sharing findings, concerns, and recommendations with the board of directors
               and senior management; and

           •   Determining that the credit union has promptly corrected noted deficiencies.18

In addition, NCUA guidance indicates examiners should base the scope, type, and
depth of an internal control review on the credit union’s size, complexity, scope of
activities, and risk profile. An assessment of the credit union’s audit function plays an
important part in this determination. When management or examiners note internal
17
     NCUA Examiner’s Guide, Chapter 1.
18
     NCUA Examiner’s Guide, Chapter 4.



                                                 12
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


control weaknesses, the credit union should take immediate action to correct the
deficiencies.

Furthermore, according to NCUA guidance, internal control is the process, developed
by a credit union's board of directors, management, and other personnel, designed to
provide reasonable assurance in the effectiveness and efficiency of its operations, the
reliability of its financial reporting and the credit union’s compliance with applicable laws
and regulations.

NCUA internal control examination objectives help to:

     •   Determine whether the credit union has implemented efficient and effective
         operations and risk management systems;

     •   Determine whether the credit union accurately records transactions;

     •   Determine timeliness and reliability of financial reporting;

     •   Determine whether the credit union complies with regulations, internal policies,
         and internal procedures; and

     •   Assess whether the credit union has implemented adequate internal controls to
         safeguard assets. 19

In our opinion, NCUA did not adequately achieve any of these objectives. Although the
examiners, Supervisory Committee and external auditors may have performed their
required minimum procedures, none of them properly assessed the adequacy of the
credit union’s internal control structure nor tested its operational effectiveness. We
reviewed NCUA examinations 20 conducted prior to the discovery of the embezzlement
and determined NCUA examiners were aware of some internal control weaknesses.
For example, the CEO repeatedly cited computer problems or software issues as the
causes of inaccurate data and delays in obtaining file downloads from 2004 through
2007. The external auditor noted during their January 2004 Supervisory Committee
annual review that the credit union’s written policies and control procedures were not
being followed. We believe the examiners relied upon the Supervisory Committee and
external auditors to assess internal controls and there was no evidence that examiners
verified any of procedures performed by the Supervisory Committee or external
auditors. Furthermore, it was not until the discovery of the fraud that NCUA identified
serious internal control weaknesses.

Following the discovery of the embezzlement, NCUA examiners determined the non-
existence of internal controls allowed the CEO to perpetrate the fraud. However, the
risk focused examination procedures used prior to the fraud detection were not

19
  NCUA Examiner’s Guide, Chapter 4.
20
  We reviewed NCUA examinations from September 30, 2003 through December 31, 2008. The September 30,
2008 and December 31, 2008, examinations were conducted following the discovery of the embezzlement.



                                                  13
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


sufficient in assessing the transaction risks. Specifically, NCUA examiners did not rate
transaction risk high until after the embezzlement was uncovered. Appendix B contains
the nine factors comprising the transaction risk indicators.

Transaction Risk Not Rated High

Examiners did not consider the following issues serious enough to rate transaction risk
high at Center Valley:

   •       Weak internal controls;

   •       History of transaction processing failures;

   •       Serious weaknesses exist in operating and information system internal controls;

   •       Exposure to processing risk due to poor conversion management; and

   •       Failure of management to make required corrections to improve transaction
           processing risk controls.

We found the examiner rated transaction risk as low during the September 30, 2003,
examination because “no serious record keeping concerns were noted” during past
exams. In addition, during the March 31, 2004, examination the examiner indicated that
transaction risk was low because of the controls in place and that the external auditor
performed an acceptable audit. However, we reviewed the external audit report and
identified control issues that the examiner should have noted. Specifically, the external
auditor found and documented in the report that:

       •    The credit union had accounting system problems;

       • The credit union had written internal controls policies and procedures, but did not
         comply with them;

       •    Each of the 71 loans reviewed contained at least one exception;

       • Bank reconcilement forms which provide a proper paper trail were not used at
         the credit union; and

       • The share totals balanced with general ledger totals; however, individual share
         ledgers were out of balance with their respective general ledger accounts. The
         difference was in the Share Certificate CDs and the external auditor attributed
         the cause to a subsequent transaction or an accounting system error.

In addition, the examiner noted on the Supervisory Committee Audit and Verification
Review questionnaire that the Supervisory Committee followed up on recommendations
and that no reportable conditions or material weaknesses existed. Furthermore, the


                                                14
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


examination document of resolution (DOR) did not mention any computer problems or
any other internal control issues. However, we believe the issues noted in the external
audit report were reportable conditions that created a high risk and that the examiner
should have performed additional procedures.

According to the examiner, transaction risk was moderate for the March 31, 2006,
examination because the credit union went through an accounting system conversion
and the credit union provided appropriate reports and reconcilements. The examiner
also indicated that the Supervisory Committee reviewed file maintenance reports and
the credit union manager answered all areas of concerns. Additionally, the examiner
stated that an external auditor performed the Supervisory Committee’s annual audit. 21
We reviewed the external auditor’s report and found a $252,000 bank reconciliation
error was not resolved. Two transactions used to balance the credit union’s cash
account were not recorded in the general ledger. These transactions did not appear on
the bank statements until April 4 and 5, 2005, and should not have been used to
balance the March 2005 statement. The CEO cited computer problems and was to
follow-up with the software provider. However, the CEO was not able to obtain a written
response from the software provider and requested the auditor to issue the report with
the exception for the $252,000. We did not find any evidence of the external auditor or
the credit union resolving this issue.

In addition, the examiner noted on the NCUA Supervisory Committee Audit and
Verification Review checklist that there were no reportable conditions or material
weaknesses found during a review of the credit union’s audit report. Furthermore, the
examination DOR did not mention any bank reconciliation issues, computer problems or
internal control issues. However, we believe the examiner should have followed-up on
the $252,000 reconciliation error with the Supervisory Committee.

During the September 30, 2007, supervisory contact, the examiner rated transaction
risk as moderate because the credit union had recently upgraded its computer operating
system. According to the examiner, the CEO stated problems with the credit union’s
computer operating system prevented the downloading of files the examiner requested
in advance. Consequently, the examiner could not perform the planned detailed review
of internal control areas because the CEO could not provide the requested files. In
addition, the examination DOR did not mention any computer problems or internal
control issues.

During the March 31, 2008, examination, the examiner rated transaction risk as
moderate because the credit union had inherent transaction risk due to the small staff.
The examiner stated they reviewed the Supervisory Committee annual audit report and
did not note any concerns. Our review of the December 31, 2007, Supervisory
Committee annual report found the Supervisory Committee did not properly document


21
   This Supervisory Committee audit covered the period of February 1, 2004 to March 31, 2005 and the report was
issued July 14, 2005. The next audit report covering the period of Aril 1, 2005 to November 30, 2006 was issued on
March 31, 2007.



                                                        15
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


bank reconcilement reviews. However, the examiner noted there were no reportable
conditions or material weaknesses.

(See Appendix A, Table A-2 for risk ratings and Appendix C for DORs)

CAMEL Management Component Not Adequately Assessed

Examiners regularly rated the management component of CAMEL as a one or two prior
to the discovery of the embezzlement at Center Valley and after the discovery rated it a
five. Examiners noted good overall management stating management was proactive
and was able to cite reasons for uncontrolled growth. However, examiners did not view
ongoing problems such as the repeated computer issues or the lack of internal controls
as unacceptable risk warranting a DOR.

According to NCUA guidance, 22 the CAMEL management component provides
examiners with objective, and not purely subjective, indicators and impacts all seven
risks found in credit union operations. 23 In addition, the guidance states seven aspects
of internal controls under the management component deserve special attention. 24 Of
the seven aspects, we believe examiners should have been aware of weaknesses in
four of the internal control areas. We also believe examiners should not have rated the
management component as a one or two because adequate internal controls play a
crucial role in controlling the risks to a credit union. We found:

     •   Information systems should have effective controls in place to ensure the
         integrity, security, and privacy of information contained on the credit union’s
         computer systems.
             o From 2004 through 2007, the CEO cited computer problems or issues with
                 the computer operating systems as causes of inaccurate data.

     •   Segregation of duties at the credit union should be adequate, but may be limited
         by the number of employees in smaller credit unions.
             o Center Valley was a small credit union.

     •   Audit program effectiveness includes follow-up of any unresolved issues, which
         should be covered in subsequent reports.
            o We found no evidence that the Supervisory Committee resolved any of the
                problems the external auditor indentified during its 2004 audit.
            o The $252,000 reconciling error found during the 2005 Supervisory
                Committee audit was never resolved.




22
   NCUA Letter to Credit Unions, No. 03-CU-04 titled CAMEL Rating System.
23
   The seven risks are credit, interest rate, liquidity, transaction, compliance, strategic, and reputation.
24
   The seven aspects are information systems, segregation of duties, audit program, record keeping, protection of
physical assets, education of staff and succession planning.



                                                        16
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


       •   Record keeping in accordance with well-established accounting principles
           reflects the actual financial condition and accurate results of operations.
           Subsidiary records should be kept in balance with general ledger control figures.
               o There was no evidence that balances for shares, loans, cash, and
                   settlement accounts were reconciled daily.
               o The 2004 Supervisory Committee audit identified issues in loan
                   underwriting, bank reconcilements, share accounts, internal control
                   policy/procedure non-compliance and accounting system problems.

       In addition, NCUA guidance 25 indicates examiners should be aware of any red flags,
       which may indicate that the examiner needs to expand analysis and review of the
       applicable operations. We found the following red flags existed at Center Valley:

       •   Limited personnel not conducive to segregation of duties or lack of segregation of
           duties when staff is adequate:
              o This is an inherent risk with small credit unions;

       •   Failure to provide or delays in providing standard reports or records:
              o The CEO repeatedly blamed computer problems for inaccurate data and
                  delays in downloading files;

       •   Inactive Supervisory Committee:
              o Outside of contracting with an external auditor to perform its annual audit,
                  the Supervisory Committee was not fully active;

       •   Non-independent member account verification:
             o The CEO provided the member lists;

       •   Inadequate internal controls:
              o Issues existed with loan underwriting, bank reconcilements, share
                 accounts, internal control policy/procedure non-compliance and
                 accounting system problems;

       •   Extravagant management or employee lifestyle relative to salary:
              o The CEO constructed a restaurant and resort business.

Accordingly, examiners should have expanded examination procedures. As a result,
NCUA missed opportunities to mitigate the loss to the NCUSIF caused by Center
Valley’s failure.




25
     NCUA Examiner’s Guide, chapter 7.



                                               17
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


C. Observations

This section addresses observations regarding credit union operations and
management actions.

                               We reviewed industry observations regarding
     Credit Union
                               occupational fraud. 26 We believe the industry’s
     Operations and
                               observations apply to issues we observed during our
     Managements
                               review of Center Valley’s failure. For example, the
     Actions                   Association of Certified Fraud Examiners (ACFE) reported
                               in their 2008 report to the nation 27 the implementation of
anti-fraud controls has a measurable impact on an organization’s exposure to fraud.
ACFE examined 15 specific anti-fraud controls and measured the median loss in fraud
cases depending on whether organizations did or did not have a given control in place
at the time of the fraud. In every comparison, the ACFE found significantly lower losses
when controls had been implemented. We determined Center Valley’s lax internal
control environment created an environment susceptible to fraud.

The following table lists other industry observations regarding fraud and how they
compare to our observations about Center Valley’s failure:

        Industry Observations                           NCUA OIG Observations of
         of Fraudulent Activity                           Center Valley’s Failure
        Lack of adequate internal Lack of segregation of duties.
        controls is the most      Backdated transactions allowed.
        common factor that
        allows fraud to occur.    Same data processing password used by all
                                  employees.
                                           Staff could perform transactions on own
                                           accounts.

        Small businesses 28 have           Lack of segregation of duties due to low number
        been determined to be              of employees (six employees for two offices).
        most susceptible to
        occupational fraud.                $8 million in assets.




26
   The Association of Certified Fraud Examiners (ACFE) defines occupational fraud as “the use of one’s occupation
for personal enrichment through the deliberate misuse or misapplication of the employing organization’s resources or
assets.”
27
   Association of Certified Fraud Examiners, 2008 Report to the Nation on Occupational Fraud and Abuse.
28
   ACFE defines small businesses as organizations with fewer than 100 employees. This category suffered the
highest median loss.




                                                        18
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


         Lack of management                Supervisory Committee not fully active.
         review allows fraud to            Independent member account verification not
         occur.                            properly conducted.
                                           Large cash discrepancy reported by external
                                           auditor not reconciled.

         Behavioral red flags
         when perpetrators are             CEO constructing a major business venture
         living beyond their               (tavern, restaurant and resort).
         apparent means.

Although, we determined that more diligent and aggressive supervision on the part of
NCUA may have mitigated the loss, we believe the cause of Center Valley’s failure was
directly attributable to the fraud committed against its members through the actions of
one individual.

Observations from our review include:

Examiners did not consider the lack of adequate internal controls serious enough to rate
transaction risk high at Center Valley even though this issue is an inherent problem in
smaller credit unions. We believe the lack of internal controls and the repeated
computer issues indicated material weaknesses may have existed, warranting
expanded examination procedures. Opportunities exist for management to reinforce the
need for additional procedures. We suggest NCUA management:

     •    Emphasize the importance of additional procedures, such as the Red Flag
          review, 29 and expanding procedures when red flags are detected. This could be
          accomplished through training modules at the Recordkeeping and Internal
          Control Subject Matter Examiner training conferences, at regional conferences
          and at regularly held examiner training; and

     •    Have the Office of Small Credit Union Initiatives provide training on the
          importance of internal controls and the responsibilities of the Supervisory
          Committee during their credit union workshops and through issued guidance.




29
  NCUA Instruction 5000.20 and corresponding memo entitled Risk-Focused Examinations and Supervision –
Updated Minimum Scope Requirements, requires examiners to complete the Red Flag Questionnaire at all
examinations of credit unions with less than $20 million in assets. The requirements in this instruction and memo
became effective for all examinations conducted after March 31, 2009.



                                                         19
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


Appendix A: Examination History

The following provides a summary of NCUA’s supervision of Center Valley, which
includes examinations and onsite supervision contacts from September 2003 through
the December 2008 examination during which NCUA placed Center Valley under
conservatorship.

Table A-1

            Center Valley’s Assets and CAMEL Ratings – 2003 to 2008

 Examination
  or Contact      Assets      Composite    C       A       M          E        L
      Date
  12/31/2008    $8,379,924        5         5      5       5           5       5
   9/30/2008    $7,710,352        5         5      5       5           5       5
   3/31/2008    $6,535,974        2         1      1       2           3       2
   9/30/2007    $7,597,479        2         1      1       2           2       2
   9/30/2006    $8,431,323        2         1      1       2           2       2
   3/31/2006    $7,704,668        2         1      1       2           2       2
   9/30/2005    $7,161,950        1         1      1       1           2       2
   3/31/2004    $6,431,761        1         1      2       1           1       2
   12/1/2003    $7,625,842        1         2      1       1           1       3
   9/30/2003    $7,625,842        1         2      1       1           1       3
C=Capital; A=Asset Quality; M=Management; E=Earnings; L=Liquidity

Table A-2
                    Center Valley’s Risk Ratings – 2003 to 2008

 Examination
 or Contact       SR        TR       CMR       CRR          IR     LR         RR
 Date
  12/31/2008     High      High      High      High        High   High        High
   9/30/2008     High      High      High      High        High   High        High
   3/31/2008     Med.     Med.       Low       Low         Low    High        Low
   9/30/2007     Med.     Med.       Low       Low        Med.    Med.        Low
   9/30/2006     N/A       N/A       N/A       N/A         N/A     N/A        N/A
   3/31/2006     Med.     Med.       Low       Low        Med.    Med.        Low
   9/30/2005     N/A       N/A       N/A       N/A         N/A     N/A        N/A
   3/31/2004     Med.      Low       Low       Low         Low    Med.        Low
   12/1/2003     N/A       N/A       N/A       N/A         N/A     N/A        N/A
   9/30/2003     Med.      Low       Low       Low         Low    Med.        Low
SR=Strategic Risk; TR=Transaction Risk; CMR=Compliance Risk;
CRR=Credit Risk; IR=Interest Rate Risk; LR=Liquidity Risk; RR=Reputation Risk



                                          20
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


Table A-3

                  Center Valley’s Financial Trends – 2003 to 2008

 Examination or                                                        Loans/Assets
                        Assets            Loans            Shares
  Contact Date                                                            Ratio
   12/31/2008         $8,379,924       $7,778,286         $6,307,232      92.8%
   9/30/2008          $7,710,352       $7,403,177         $6,177,989      96.0%
   3/31/2008          $6,535,974       $6,161,383         $5,159,949      94.3%
   9/30/2007          $7,597,479       $7,020,722         $6,728,110      92.4%
   9/30/2006          $8,431,323       $8,186,132         $6,692,490      97.1%
   3/31/2006          $7,704,668       $7,283,084         $6,879,001      94.5%
   9/30/2005          $7,161,950       $6,935,406         $5,806,142      97.0%
   3/31/2004          $6,431,761       $5,248,298         $5,763,101      81.6%
   12/1/2003          $7,625,842       $5,888,637         $7,005,179      77.2%
   9/30/2003          $7,625,842       $5,888,637         $7,005,179      77.2%




                                          21
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


Appendix B: Transaction Risk Indicators

The following summarizes NCUA Examiner’s Guide, Chapter 2, Attachment 2.1, which
provides examiners with guidance in the assignment of risk level.

   Factor                         Low                       Moderate                              High
   Board and            Fully understands all       Reasonably understands           Does not understand, or
   Operational          aspects of transaction      key aspects of transaction       chooses to ignore key
   Management           risk.                       risk.                            aspects of transaction risk.
   Understanding
   Responsiveness       Anticipates and             Adequately responds to           Does not anticipate or take
   to Market and        responds well to            changes.                         timely or appropriate actions
   Technological        changes.                                                     in response to changes.
   Conditions
   Risk Exposure        Only a slight probability   Possible loss to reputation,     Weak internal controls
                        of damage to                earnings or capital exists but   expose the credit union to
                        reputation, capital, or     is mitigated by adequate         significant damage to
                        earnings.                   internal controls.               reputation, or loss of
                                                                                     earnings or capital.
   Transaction          History or sound            History of adequate              History of transaction
   Processing           operations. Likelihood      operations. Likelihood of        processing failures.
   Controls             of transaction              transaction processing           Likelihood of future failures
                        processing failures is      failures is minimized by         is high due to absence of
                        minimal due to strong       generally effective internal     effective internal controls.
                        internal controls.          controls.
   Systems and          Strong control culture      Adequate operating and           Serious weaknesses exist in
   Controls             that results in systems,    information processing           operating and information
                        internal controls, audit,   systems, internal controls,      systems, internal controls,
                        and contingency and         audit coverage, and              audit coverage, or
                        business recovery plans     contingency and business         contingency and business
                        that are sound.             recovery plans are evident.      recovery plans.
   MIS                  Satisfactory                Minor deficiencies may exist     Significant weaknesses in
                                                    that relate to transaction and   transaction and information
                                                    information processing           processing activities.
                                                    activities.
   New Products or      Favorable performance       Planning and due diligence       Inadequate. CU is exposed
   Services             in expansions and           prior to introduction of new     to risk from the introduction
                        introductions of new        services are performed           or expansion of new
                        products and services.      although minor weaknesses        products and services.
                                                    exist.
   Conversion           Conversion plans are        Conversion plans are             CU may be exposed to
   Management           clear, comprehensive,       evident, although not always     processing risks due to poor
                        and followed.               comprehensive.                   conversion management,
                                                                                     either from the integration of
                                                                                     new acquisitions with
                                                                                     existing systems, or from
                                                                                     converting one system to
                                                                                     another.
   Problem              Management identifies       Management recognizes            Management has not
   Identification and   weaknesses quickly and      weaknesses and generally         demonstrated a commitment
   Corrective Action    takes appropriate           takes appropriate action         to make the corrections
                        action.                                                      required to improve
                                                                                     transaction processing risk
                                                                                     controls.




                                                         22
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


Appendix C: Documents of Resolution

The following tables provide a summary of repetitive recommendations/DORs to correct
problems identified by examiners from March 31, 2004 through March 31, 2008. The
DORs are categorized by issue.

Table C-1
                                    Liquidity Risk

 Examination or      DOR Items
 Contact Date
 3/31/2004           Develop a cash flow budget for liquidity considering new
                     services
 9/30/2005           Continue with plan to reduce loan/asset ratio to 80 percent
                     Continue with plans to repay outstanding LOC by 1/31/2006
                     Invest surplus funds in day in day out instruments until liquidity
                     goals met
 3/31/2006           Develop cash flow budget
                     Adjust budget to consider cost of borrowed funds
                     Establish plan and time estimates for borrowed funds limits and
                     repayment
 9/30/2007           Continue to review and adjust loan a share rates for sufficient
                     earnings and adequate liquidity
                     Review financial plans compared to actual operations
                     Continue to update and adjust budget based on actual
                     operations and trends
 3/31/2008           Tighten up lending standards to reduce loan demand
                     Promote savings to increase shares
                     Pay down outstanding borrowed funds
                     Assure all surplus funds are invested in liquid accounts
                     Monitor liquidity position on regular basis


Table C-2
                                      Credit Risk

 Examination or      DOR Items
 Contact Date
 3/31/2004           Formalize Allowance for Loan Losses Methodology
                     Indicate loan loss ratio used
                     Consider using a charge-off policy
                     Consider developing a delinquent borrower watch list
 3/31/2006           Update Allowance for loans losses account to consider risk
                     based lending program




                                           23
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


Table C-3

                                   Strategic Risk

 Examination or      DOR Items
 Contact Date
 3/31/2004           Complete and submit an updated Strategic Plan
 3/31/2006           Test contingency plan
                     Update business and marketing plans considering goals, cash
                     flow etc.
 9/30/2008           Place manager on administrative leave
                     Permit NCUA to perform 100% positive member account
                     verification
                     Hire a temporary manager


Table C-4
                                  Compliance Risk

 Examination or      DOR Items
 Contact Date
 3/31/2008           Assure Bank Secrecy Act Compliance assessment is completed
                     annually
                     Reduce threshold for daily cash aggregation report to $7,000




                                          24
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02


Appendix D: NCUA Management Comments




                                          25
MATERIAL LOSS REVIEW CENTER VALLEY FEDERAL CREDIT UNION
OIG-10-02




                                          26
